OIG Audit Report GR-30-98-011
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Alexandria, Virginia Police Department
 
GR-30-98-011
December 1998
 
 
Executive Summary
 
The Office of the Inspector General, Audit Division, has completed an
audit of four grants awarded by the U.S. Department of Justice (DOJ), Office of Community
Oriented Policing Services (COPS), to the Alexandria, Virginia Police Department (Police
Department). The Police Department received grants of: $450,000 to hire 6 officers under
the Accelerated Hiring, Education, and Deployment (AHEAD) program; $225,000 to hire 3
officers under the Universal Hiring Program (UHP); $237,757 under the Making Officer
Redeployment Effective (MORE) 1995 program to purchase equipment; and $207,862 under the
MORE 1996 program to purchase equipment. The purpose of the additional officers and
equipment is to enhance community policing efforts.

Our audit determined that:



The Police Department does not have a system to document redeployment of officers to
      community policing; thus we questioned $406,138 in funds received for the MORE 1995 and
      MORE 1996 grants.




The Police Department does not have a formal plan to retain the officers hired under the
      UHP grant.


These items are discussed in the FINDINGS AND RECOMMENDATIONS section of the report.
Our SCOPE AND METHODOLOGY appear in Appendix II.
#####